         DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                              Washington, D.C. 20201




January 7, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities
                 and Information Technology Audits


SUBJECT:       Results of Limited-Scope Review at Kids and Company of
               Linn County’s Head Start Program (A-09-09-00095)


The attached final report provides the results of our limited-scope review of Kids and Company
of Linn County’s (Kidco Head Start) Head Start program. The Administration for Children and
Families, Office of Head Start, requested this review as part of its overall assessment of Head
Start grantees that have applied for additional funding under the American Recovery and
Reinvestment Act of 2009 (Recovery Act).

President Obama signed the Recovery Act into law on February 17, 2009. The Recovery Act
includes measures to modernize our Nation’s infrastructure, enhance energy independence,
expand educational opportunities, preserve and improve affordable health care, provide tax
relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and Departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

The objectives of our limited-scope review were to determine whether (1) Kidco Head Start is
fiscally viable and (2) Kidco Head Start’s financial management system adequately managed and
accounted for Federal funds.

Kidco Head Start is fiscally viable. In addition, Kidco Head Start’s financial management
system adequately managed and accounted for Federal funds except for its systems and internal
controls related to accounting and personnel.

In written comments on our draft report, Kidco Head Start provided information on actions that it
had taken to address the findings. With respect to the policies and procedures for the use of
Page 2 – Yvette Sanchez Fuentes

consultants, Kidco Head Start should ensure that they specifically cover the requirements stated
in Federal regulations.

In determining whether Kidco Head Start should be awarded additional Head Start and Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing Kidco Head Start’s financial condition.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-09-09-00095 in all correspondence.


Attachment


cc:
Nancy Hutchins
Regional Program Manager
Office of Head Start
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
REVIEW AT KIDS AND COMPANY
     OF LINN COUNTY’S
   HEAD START PROGRAM




                    Daniel R. Levinson
                     Inspector General

                      January 2010
                      A-09-09-00095
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the cognitive, social, and
emotional development of children through the provision of health, educational, nutritional,
social, and other services to enrolled children and families. Within the U.S. Department of
Health and Human Services, the Administration for Children and Families (ACF) administers the
Head Start program. Head Start provides grants to local public and private nonprofit and for-
profit agencies to deliver comprehensive child development services to economically
disadvantaged children and families.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5-percent cost-of-living increase and bolster
training and technical assistance activities.

Kids and Company of Linn County (Kidco Head Start), a nonprofit corporation, operates a Head
Start program that provides comprehensive early childhood development services for
disadvantaged preschool children and their families at locations throughout Linn, Benton, and
Marion Counties in Oregon. Kidco Head Start was established in 1977.

Kidco Head Start is funded through Federal and State grants and local community contributions
and was awarded ACF grant funds for Head Start totaling $2,511,183 for calendar year 2009. In
addition, Kidco Head Start was awarded Recovery Act grant funds for the budget period
July 1, 2009, through September 30, 2010, totaling $214,042 for cost-of-living increases and
quality improvement.

OBJECTIVES

The objectives of our limited-scope review were to determine whether (1) Kidco Head Start is
fiscally viable and (2) Kidco Head Start’s financial management system adequately managed and
accounted for Federal funds.

SUMMARY OF FINDINGS

Kidco Head Start is fiscally viable. In addition, Kidco Head Start’s financial management
system adequately managed and accounted for Federal funds except for its systems and internal
controls related to accounting and personnel. Specifically, Kidco Head Start did not
(1) adequately segregate cash management duties, (2) segregate property inventory duties,
(3) have adequate personnel on its board of directors, and (4) have written policies and
procedures for the use of consultants.




                                                 i
RECOMMENDATION

In determining whether Kidco Head Start should be awarded additional Head Start and Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing Kidco Head Start’s financial condition.

KIDCO HEAD START COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Kidco Head Start provided information on actions that it
had taken to address the findings. Kidco Head Start’s comments are included in their entirety as
the Appendix.

With respect to the policies and procedures for the use of consultants, Kidco Head Start should
ensure that they specifically cover the requirements stated in Federal regulations.




                                                ii
                                                  TABLE OF CONTENTS

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start Program............................................................................................1
              Kids and Company of Linn County ...................................................................1
              Requirements for Federal Grantees ...................................................................1

          OBJECTIVES, SCOPE, AND METHODOLOGY.......................................................2
               Objectives ..........................................................................................................2
               Scope..................................................................................................................2
               Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATION.............................................................................3

          INADEQUATE SYSTEMS AND INTERNAL CONTROLS FOR
            ACCOUNTING AND PERSONNEL ........................................................................3
               Inadequate Segregation of Cash Management Duties .......................................3
               Lack of Segregation of Property Inventory Duties ............................................3
               Inadequate Personnel on Board of Directors .....................................................4
               Lack of Policies and Procedures for Use of Consultants...................................4

          RECOMMENDATION .................................................................................................4

          KIDCO HEAD START COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE .................................................4

APPENDIX

          KIDS AND COMPANY OF LINN COUNTY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007 (Head
Start Act), Head Start is a national program that promotes school readiness by enhancing the
cognitive, social, and emotional development of children through the provision of health,
educational, nutritional, social, and other services to enrolled children and families. Within the
U.S. Department of Health and Human Services, the Administration for Children and Families
(ACF) administers the Head Start program.

Head Start provides grants to local public and private nonprofit and for-profit agencies to deliver
comprehensive child development services to economically disadvantaged children and families,
with a special focus on helping preschoolers develop the early reading and math skills needed to
be successful in school. Local Head Start programs engage parents in their children’s learning
and emphasize parental involvement in program administration.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5-percent cost-of-living increase and bolster
training and technical assistance activities.

Kids and Company of Linn County

Kids and Company of Linn County (Kidco Head Start), a nonprofit corporation, operates a Head
Start program that provides comprehensive early childhood development services for
disadvantaged preschool children and their families at locations throughout Linn, Benton, and
Marion Counties in Oregon. Kidco Head Start was established in 1977.

Kidco Head Start is funded through Federal and State grants and local community contributions
and was awarded ACF grant funds for Head Start totaling $2,511,183 for calendar year 2009. In
addition, Kidco Head Start was awarded Recovery Act grant funds for the budget period
July 1, 2009, through September 30, 2010, totaling $214,042 for cost-of-living increases and
quality improvement.

Requirements for Federal Grantees

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the reasonableness, allocability, and allowability
of costs in accordance with the provisions of the applicable Federal cost principles and the terms
and conditions of the award. Grantees must maintain accounting records that are supported by
source documentation and must maintain financial systems that provide for accurate and



                                                 1
complete reporting of grant-related financial data. Grantees are also required to compare outlays
with budget amounts for each award and may use grant funds only for authorized purposes.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The objectives of our limited-scope review were to determine whether (1) Kidco Head Start is
fiscally viable and (2) Kidco Head Start’s financial management system adequately managed and
accounted for Federal funds.

Scope

We conducted our audit for the limited purpose described in the objectives; thus, the audit would
not necessarily have disclosed all material weaknesses. Accordingly, we do not express an
opinion on Kidco Head Start’s overall system of internal accounting controls. We performed
limited tests and other auditing procedures on Kidco Head Start’s financial management system
to assess its ability to administer federally funded projects.

We conducted our fieldwork in August 2009, which included visits to Kidco Head Start’s
administrative office in Lebanon, Oregon.

Methodology

To accomplish our objectives, we:

       reviewed relevant Federal laws, regulations, and guidance;

       reviewed Kidco Head Start’s fiscal procedures related to accounting documentation and
        preparation of financial reports;

       reviewed selected Federal grant award documentation to determine Kidco Head Start’s
        Federal funding;

       reviewed Kidco Head Start’s audited financial statements for calendar years 2006
        through 2008;

       reviewed Kidco Head Start’s expense accounts and unaudited financial statements for the
        5-month period ended May 31, 2009; and

       performed liquidity and stability analyses of Kidco Head Start’s financial records.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



                                                 2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATION

Kidco Head Start is fiscally viable. In addition, Kidco Head Start’s financial management
system adequately managed and accounted for Federal funds except for its systems and internal
controls related to accounting and personnel.

INADEQUATE SYSTEMS AND INTERNAL CONTROLS FOR ACCOUNTING AND
PERSONNEL

Kidco Head Start did not (1) adequately segregate cash management duties, (2) segregate
property inventory duties, (3) have adequate personnel on its board of directors, and (4) have
written policies and procedures for the use of consultants.

Inadequate Segregation of Cash Management Duties

Kidco Head Start did not adequately segregate cash management duties. Both 45 CFR
§ 74.21(b)(3) and Office of Management and Budget (OMB) Circular A-110 (2 CFR part 215),
subpart C, section __.21(b)(3), state that the recipient’s financial management systems shall
provide for effective control over and accountability for all funds, property, and other assets.

Kidco Head Start had only one employee responsible for processing cash receipts and petty cash
disbursements, preparing deposit slips and performing banking functions, requesting Federal
funds, reconciling monthly bank statements, and maintaining custody of the supply of unused
checks. In addition, this employee had check-signing authority on the checking account. For
internal controls over cash management to be effective, these duties should be segregated among
different individuals. Kidco Head Start stated that there was inadequate segregation of duties
because the bookkeeper was on maternity leave and indicated that it was in the process of hiring
a temporary worker to cover the bookkeeper’s responsibilities.

Lack of Segregation of Property Inventory Duties

Kidco Head Start did not segregate property inventory duties. Both 45 CFR § 74.21(b)(3) and
OMB Circular A-110 (2 CFR part 215), subpart C, section __.21(b)(3), state that the recipient’s
financial management systems shall provide for effective control over and accountability for all
funds, property, and other assets.

Kidco Head Start’s transportation/facility coordinator performed all duties related to maintaining
equipment inventory, including conducting physical inventories, reconciling differences between
the actual count and the inventory record, and investigating any discrepancies. For internal
controls over property inventory to be effective, these duties should be segregated among
different individuals. Kidco Head Start’s executive director explained that because Kidco Head
Start is a small entity, it is not always possible to segregate duties.




                                                3
Inadequate Personnel on Board of Directors

Kidco Head Start did not have adequate personnel on its board of directors. Section 642(c) of
the Head Start Act requires that all Head Start agencies establish and maintain a formal structure
for program governance that includes a governing body composed of not less than one member
with a background and expertise in fiscal management or accounting, not less than one member
with a background in early childhood education and development, and not less than one member
who is a licensed attorney familiar with issues that come before the governing body. If persons
with these qualifications are not available to serve as members of the governing body, the
governing body must use consultants or other individuals with relevant expertise and background
to work directly with the governing body.

Kidco Head Start’s board of directors did not have an individual with a background and expertise
in fiscal management or accounting. Although Kidco Head Start has been actively working with
its bank to recruit a qualified individual, it has not been successful.

Lack of Policies and Procedures for Use of Consultants

Kidco Head Start did not have any written policies and procedures for the use of consultants.
OMB Circular A-122 (2 CFR part 230), Attachment B, section 37.b, states that in determining
the allowability of consultants’ costs, the following factors are relevant: (1) the nature and scope
of services, (2) the necessity of contracting for the service, (3) the past pattern of such costs,
(4) whether the service can be performed more economically by an employee, (5) the
qualifications of the consultant, and (6) the adequacy of the contractual agreement.

Kidco Head Start’s executive director explained that because consultants are rarely used, written
policies and procedures were unnecessary.

RECOMMENDATION

In determining whether Kidco Head Start should be awarded additional Head Start and Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing Kidco Head Start’s financial condition.

KIDCO HEAD START COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Kidco Head Start provided information on actions that it
had taken to address the findings. Kidco Head Start’s comments are included in their entirety as
the Appendix.

With respect to the policies and procedures for the use of consultants, Kidco Head Start should
ensure that they specifically cover the requirements stated in Federal regulations.




                                                 4
APPENDIX
                                                                                                                          Page 1 of 2


                                        APPENDIX: KIDS AND COMPANY OF LINN COUNTY COMMENTS


                                                              Kidco Head Start
                                                      Administration Office 300 Market St., Suite 200 Lebanon, OR 97355
                                                       www.kidcoheadstart.org (541) 451-1581 FAX (541) 259-1581




                                        Lori A. Ahlstrand
          Sweet Home Sunnyside          Department of Health and Human Services
            44829 Quartzville Rd.       Office of Inspector General
                Foster, OR 97345
                  (541) 367-8070
                                        Office of Audit Services, Region IX
                                        90 – 7th Street, suite 3-650
                                        San Francisco, CA 94103
     Sweet Home - Crawfordsville
                38420 Glass Ave.
                     P.O. Box 202       Re: Report Number A-09-09-00095
         Crawfordsville, OR 97336
                  (541) 367-3361
                                        November 25, 2009
                           Lebanon
   Physical: 31575 Sand Ridge Rd.       Dear Ms. Ahlstrand,
   Mailing: 300 Market St. Suite 200
                Lebanon, OR 97355
                    (541) 259-2227      The following is our response to the findings indicated in the review report dated
                                        November 19, 2009:
                     Central Albany
          Physical: 2526 20th Ave SE    FINDING: Inadequate Segregation of Cash Management Duties
Mailing: 2532 Santiam Hwy SE #117
                   Albany, OR 97322
                      (541) 928-8690    Response: Kidco Head Start has a “Separation of Duties” policy between the Bookkeeper
                                        and the Financial Coordinator which was approved by the previous independent auditing
                Albany - Riverside      firm. Since we changed Bookkeepers and with input from the OIG auditors, we have
           35140 Meadow Lane SW         made a few changes to our duty segregation . The changes have been approved by the
                 Albany, OR 97321
                    (541) 967-1044      current independent auditing firm. While the Bookkeeper was on maternity leave, the
                                        Financial Coordinator was the only staff in the financial office until a temporary employee
                           Corvallis
                                        could be hired. Although the Financial Coordinator was a signer on the checking account,
   Physical:4515 SW West Hills Rd.      she had been removed from signing while fulfilling the Bookkeeper’s functions.
             Mailing: P.O. Box 2750
               Corvallis, OR 97339
                     (541) 758-1164
                                        FINDING: Lack of Segregation of Property Inventory Duties
                        Philomath
                      1123 Main St.     Response: Kidco Head Start has added a new procedure for handling property inventory.
                      P.O. Box 487
              Philomath, OR 97370
                                        Transportation/ Facilities Coordinator will maintain the inventory and investigate any
                    (541) 929-7595      discrepancies between the actual count and the inventory record. The Transportation
                                        Specialist will conduct a physical inventory every year using the inventory record.
                      Central Linn      Notation of any discrepancies will be noted on the record and it will be signed, dated and
               331 E. Blakely Rm L      given to the Director for monitoring purposes. The Director will ensure that any
                      P.O. Box 582
             Brownsville, OR 97327      discrepancies are investigated by the Transportation/ Facilities Coordinator.
                   (541) 466-3604
                                        FINDING: Inadequate Personnel on the Board of Directors
                        Harrisburg
             885 Sommerville Lane       Response: Kidco Head Start has been actively working to find a qualified individual with
                       P.O. Box 14
             Harrisburg, OR 97446       expertise in fiscal management or accounting. We currently have an interested individual
                 (541) 995-8270         from the banking industry and have sent him an application for board membership.
                          Jefferson
                       615 N. 2nd St.
                      P.O. Box 1271
               Jefferson, OR 97352
                     (541) 327-7924
                                                                                         Page 2 of 2

November 25, 2009
Page Two


FINDING: Lack of Policies and Procedures for use of Consultants

Response: In recent history, Kidco Head Start has only used consultants to cover mental health
services. Following is the procedure for hiring and using consultants.

                               Procedure for Use of Consultants

Consultants are used when the nature of the need does not require a full-time position but does
require specific expertise, education, licensure and/or certification as well as meets the criteria
for consultant status.

Some areas where consultants may be used are as follows:
      Mental Health – Behavior specialists for classroom management
      assistance and for individual children and families
      Health – Nursing services for specific health needs of a child
      Fiscal – CPA services
      Legal – Attorney services
      Education – Experts in disabilities, infants/toddlers, etc.
      Family Services - Trainers

The hiring process is similar to hiring any other position in the program, as follows:
        *Need for position is determined, and compensation is decided upon
                according to past history with the position and budget allowances.
        Compensation may not be greater than the local market rate.
        *Advertisements are placed where people with the expertise are likely to
               be found
        *Completion of an application is required
        *Appropriate personnel screen application using qualification criteria listed
                on the job announcement
        *Applicants are interviewed by a committee
        *References are checked
        *Status on the State of Oregon Criminal History Registry is confirmed
        *Court print of driving record is obtained to ensure insurability
        *Copy of certification or license is collected where such applies

Each consultant has a job description, and a contract indicates the exact services, including
location, hours allowed, salary, and reporting requirements.

Please let me know if you need further information.

Sincerely,



/Jo O’Leary/
Director
